No. 19-972
I N THE

~upreme QCourt of tbe Wniteb ~tate.s
CHRISTOPHER EDWARD MCMILLEN
AN INCAPACITATED PERSON,

Petitioner,

V.

NEW CANEY INDEPENDENT SCHOOL DISTRICT,

Respondent.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I certify that three copies of the Reply
Brief for Petitioner in McMillen v. New Caney Independent School District, No.
19-972, were served via overnight mail on all parties required:
Charles Cory Rush
KARCZEWSKI BRADSHAW SPALDING

3700 Buffalo Speedway
Houston, TX 77098
(713) 993-7060
crush@kbslawgroup.com
Counsel for Respondent

I declare under penalty of perjury that the foregoing is true and correct.

Date: May 4, 2020

